CASE NO. : 20-5329

IN THE
SUPREME COURT OF THE UNITED STATES

DOUGLAS DEAN SCYPHERS
PETITIONER, PRO SE
VS.
STATE OF WASHINGTON, ET.AL.
RESPONDENTS
PETITION FOR REHEARING
DECLARATION OF GOOD FAITH

I, Douglas Dean Scyphers, do swear or declare or certify that as required
by Supreme Court Rule 44.1 and 44.2, my petition for rehearing under
extraordinary circumstances was filed timely and within the 25 day filing
period,and is presented to the court in good faith and not for delay. My Writ
of Certiorari was denied on October 5th, 2020 (see appendix 'B' for denial
letter). My petition for rehearing was postmarked October 26th, 2020 and
received by the court on November 3rd, 2020 (see appendix 'c' for court
letter).
I, Douglas Dean Scyphers, declare under penalty of perjury that the
foregoing is true and c rect. Executed on November 15th, 2020.

Douglas Dean Sc phers, Petitioner Pro Se

CASE NO.: 20-5329

IN ME
SUPREME COURT OF THE UNITED STATES

DOUGLAS DEAN SCYPHERS
PETITIONER, PRO SE
VS.
STATE OF WASHINGTON, ET.AL.
RESPONDENTS

PETITION FOR REHEARING

DECLARATION OF GROUNDS
I Douglas Dean Scyphers, do swear or declare or certify that this petition
for rehearing under extraordinary circumstances, complies with Supreme Court
Rules 44.1 and 44.2 and 44.6. It briefly and distinctly states the grounds
and that the grounds are limited to intervening circumstances of substantial
or controlling effect or to other substantial grounds not previously
presented.
I, Douglas Dean Scyphers, declare under penalty of perjury that the
foregoing is true and coact. Executed on November 15th, 2020.

Douglas Dean Scyphers, Petitioner, Pro Se

CASE NO. : 20-5329

IN THE
SUPREME COURT OF THE UNITED STATES

DOUGLAS DEAN SCYPHERS
PETITIONER, PRO SE
VS.
STATE OF WASHINGTON, ET.AL.
RESPONDENTS

PETITION FOR REHEARING
CERTIFICATION OF COUNSEL

I, Douglas Dean Scyphers, do swear or declare or certify that in accordance
with Supreme Court Rules 33, 34, and 44, I am a Pro Se Petitioner in this
Petition for Rehearing under extraordinary circumstances.
I, Douglas Dean Scyphers, declare under penalty of perjury that the
foregoing is true and correct. Executed on November 15th, 2020.

Douglas Dean Scyphers, Petitioner, Pro Se

CASE NO.: 20-5329

IN THE
SUPREME COURT OF THE UNITED STATES

DOUGLAS DEAN SCYPHERS
PETITIONER, Pro Se

vs.

STATE OF WASHINGTON, ET.AL.
RESPONDENTS

PETITION FOR REHEARING
DECLARATION OF WORD COUNT
I Douglas Dean Scyphers, do swear or declare or certify that this petition
for rehearing under extraordinary circumstances, complies with Supreme Court
Rule 33.1(h) and 33.2(b). The exact word count is 2,407 words.
I Douglas Dean Scyphers, declare under penalty of perjury that the
egoingrs^rue and

ect. Executed on November 15th, 2020.

7
)
1:
Douglas Dean Scyph rs, Petitioner, Pro Se

(

